                        UNITED STATES DEPARTMENT OF EDUCATION 

                                         OFFICE OF INSPECTOR GENERAL 

                                   1999 BRYAN STREET, HARWOOD CENTER, SUITE 2630 

                                              DALLAS, TEXAS 75201-6817 

                                        PHONE: (214) 880-3031 FAX: (214) 880-2492 




Ms. Sharon Wells                                       DEC        9 2004
Education Program Specialist
U. S. Department of the Interior
Bureau of Indian Affairs
Office of Indian Education Programs
1849 CSt., NW, Room 3512, MIB
Washington, DC 20240

Dear Ms. Wells:

This Final Audit Report (ED-OIG/A06-E0002) presents the results of our audit of the
Individuals with Disabilities Education Act (IDEA), Part B requirements at Circle of Nations
School (Circle of Nations) for the period July 1, 2001, through September 30, 2003. Our
objective was to determine whether Circle of Nations administered IDEA, Part B funds in
accordance with requirements, laws and regulations, and provided services to eligible children in
accordance with each student's Individualized Education Program (IEP).

We provided a draft of this report to the Bureau of Indian Affairs (BIA), Office of Indian
Education Programs. In its response to our draft report, BIA officials agreed with our
recommendations but did not agree with the assessment that the school did not have procedures
in place to demonstrate services were being provided to children with IEPs. We have
summarized BIA's comments in the body of the report and have included the response as an
Attachment to this report.




The Department of Education (Department) provides funding from major program grants to the
Bureau of Indian Affairs (BIA), an agency within the Department of the Interior. The BIA
allocates these funds to elementary and secondary schools operated or funded by the Secretary of
the Interior, including tribally operated schools that are funded by the BIA. These grants support
students with disabilities and disadvantaged children. The Department provided $140 million
(22 percent) of BIA' s school operating funds in 2002. The program funds from the Department
have constituted an increasing share of these schools' operating budgets since fiscal year (FY)
1999 (from 18.2 percent to 22 percent in fiscal year 2002). This is due in part to large increases
since 1999 in two major Department programs under which BIA receives funds, IDEA, Part B,
and Elementary and Secondary Education Act, Title I (Title I). At BIA funded schools, funds for
students with disabilities under IDEA increased by 50 percent, and Title I funds for
disadvantaged students increased by 21 percent for fiscal years 1999 through 2002. As the
IDEA, Part B appropriation increased, IDEA, Part B funds provided to the Secretary of the




       Our mission is to promote the efficiency, effectiveness, and integrity o/the Department's programs and operations
ED-OIG/A06-E0002                                                                                       Page 2 of 7


Interior have been capped in the FY 2002, 2003, and 2004 appropriation language at the prior
year’s funding level, plus inflation.

IDEA, Part B requires the Department to provide funds to the Secretary of the Interior to assist in
providing special education and related services to children with disabilities. From the amount
appropriated for any fiscal year, the Department shall reserve 1.226 percent to provide assistance
to the Secretary of the Interior, of which 80 percent is allotted for serving children ages 5 through
21 with disabilities enrolled in elementary and secondary schools for Indian children operated or
funded by the Secretary of the Interior. The Secretary of the Interior is required to submit
information to the Department that it meets the requirements of IDEA. In addition, the Secretary
of the Interior will provide several assurances, including an assurance that the Department of the
Interior will cooperate with the Department in its exercise of monitoring and oversight
requirements.

BIA funded schools are to use 15 percent of the Indian School Equalization Program (ISEP)
formula funds generated by their base instructional administration to fund their special education
programs. ISEP funds constitute the largest amount of the Department of Interior funds used for
school-level administration, such as principals’ salaries and administrative assistance, in addition
to salaries for teachers, teacher aides, and the cost of materials. If the 15 percent is not sufficient
to fund the services needed by all eligible ISEP students with disabilities, then the school may
apply for IDEA, Part B funds. Schools must demonstrate need when applying for these funds.

Circle of Nations is a boarding school located in Wahpeton, North Dakota. The BIA disbursed
$1,554,466 of IDEA, Part B funds to Circle of Nations for our two-year audit period as
follows—

                               School Year 2001-2002                             $ 330,834
                               School Year 2002-2003                             $1,223,632
                               Total                                             $1,554,466

For the 2001-2002 school year, Circle of Nations had an enrollment of 208 students with 138
classified as disabled; and in the 2002-2003 school year, enrollment was 201 students with 145
classified as disabled. The average amount of IDEA, Part B funds per pupil was $2,397 in the
2001-2002 school year, and $8,439 in the 2002-2003 school year.


                                            AUDIT RESULTS

Circle of Nations was unable to demonstrate that it provided the planned special education and
related services to 97 percent of the students in our sample in accordance with their IEP.

According to 34 C.F.R. § 300.341(a)(1)(2), The [Secretary of the Interior]1 shall ensure that each
public agency develops and implements an IEP for each eligible child with a disability served by

1
  The regulations specifically refer to the SEA (State Educational Agency). However, 34 C.F.R. § 300.267 requires
the Secretary of the Interior to comply with specific sections of 34 C.F.R. Part 300, including 34 C.F.R. § 300.341.
ED-OIG/A06-E0002                                                                        Page 3 of 7


that agency. The IEP must contain certain elements according to 34 C.F.R. § 300.347,
including—

    (a)(3) A statement of the special education and related services and supplementary aids
    and services to be provided to the child, . . .

    (a)(7)(ii)(A) A statement of how the child’s parents will be regularly informed (through
    such means as periodic report cards), at least as often as parents are informed of their
    nondisabled children’s progress of, . . . Their child’s progress toward the annual goals.

Further, 34 C.F.R. § 300.350(a)(1) requires that each public agency must provide special
education and related services to a child with a disability in accordance with the child’s IEP.

An IEP has several elements including the child’s present level of educational performance, the
annual goals and objectives, as well as the direct special education and related services that will
be provided to help meet those goals and objectives. The IEP must include a statement of how
the parents will be informed of their child’s progress including the extent to which the progress is
sufficient to enable the child to achieve the annual goals. However, the progress reports
provided to parents do not address the frequency and duration of services being provided. The
frequency and duration of actual services provided should be documented in teachers’ attendance
records.

Concerning the need to document special education services provided, OMB Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments, Attachment A, Paragraph C.1
(a)(b)(j) (1997) provides that—

    To be allowable under Federal awards, costs must . . . Be necessary and reasonable for
    proper and efficient performance and administration of Federal awards . . . Be allocable
    to Federal awards . . . Be adequately documented.

To determine whether Circle of Nations was providing the required services and documenting
those services, we selected a 10 percent random sample of 15 of 138 students with disabilities in
school year 2001-2002 and 17 of 145 students in school year 2002-03. We increased the 10
percent random sample to include three additional files because 3 of the 32 student files did not
contain an applicable IEP, and we were unable to do any additional review work. Although 25
of the 29 remaining students had an IEP, 4 students did not receive any services as required by
their IEPs, and 24 did not have adequate documentation to support what special education and
related services were provided. Additionally, Circle of Nations did not develop the required
progress reports informing the parents of their child’s progress as specified in the student’s IEP
for 5 of the 29 students reviewed.

We concluded that these conditions occurred because school officials did not have procedures in
place to (1) ensure special education and related services were provided in accordance with the
student’s IEP, (2) ensure that parents are informed of their child’s progress as specified in the
student’s IEP, and (3) document that special education and related services were provided to all
students with disabilities in accordance with their IEPs.
ED-OIG/A06-E0002 	                                                                       Page 4 of 7


As a result of the 97 percent error rate (31 of 32 files reviewed), Circle of Nations was unable to
document that it provided the required special education services for the students with
disabilities during our two-year audit period. The high error rate and lack of documentation
indicates that Circle of Nations has a management system that does not meet the management
standards set forth in the regulations. The regulations at 34 C.F.R. § 80.12(a) state that a grantee
may be considered “high risk” if an awarding agency determines that a grantee—

       (1) Has a history of unsatisfactory performance, or
       (2) Is not financially stable, or
       (3) Has a management system that does not meet the management standards set forth in
           this part, or
       (4) Has not conformed to terms and conditions of previous awards, or
       (5) Is otherwise not responsible; and if the awarding agency determines that an award
           will be made, special conditions and/or restrictions shall correspond to the high risk
           condition and shall be included in the award.


                                  RECOMMENDATIONS

We recommend that the Assistant Secretary for Special Education and Rehabilitative Services
instruct the Bureau of Indian Affairs to—

1. 	 Obtain assurance from Circle of Nations officials that the $1,554,466 of IDEA, Part B funds
     was used to deliver the educational assistance proposed in each of the IEPs for the 283
     children with disabilities.

2. 	 Instruct Circle of Nations to document all special education and related services provided to
     each current student with disabilities and develop a progress report to inform parents of their
     child’s progress.

3. 	 Submit a corrective action plan, which includes strategies, benchmarks, proposed evidence of
     change, targets and timelines, to ensure the noncompliance identified in this audit is
     corrected.

We also recommend the Assistant Secretary for Special Education and Rehabilitative Services—

4. 	 Evaluate the corrective action plan submitted and determine whether the action proposed will
     correct the noncompliance identified in this audit.

5. 	 Monitor the corrective action taken and determine if it was effective. If the corrective action
     was not effective, determine whether Circle of Nations should be designated as a high-risk
     grantee.
ED-OIG/A06-E0002 	                                                                      Page 5 of 7



                        BIA’S COMMENTS TO THE DRAFT REPORT

BIA agreed to implement our recommendations, however it did not agree with our assessment
that the school did not have procedures in place to demonstrate services were being provided to
children with disabilities. BIA included attachments to its response to demonstrate how the
Midwest Regional Office validates the delivery of services every October through the Indian
School Equalization Program.

Further, BIA responded, “In addition, Circle of Nations now uses an Inclusion Report form for
each student to document both the progress and hours of service time (See Attachment F). In
addition, a Monthly Service Attendance sheet (See Attachment G) is also used by each special
education teacher to document services.”


                                              OIG’S RESPONSE

We reviewed BIA’s response and have not changed our finding. We acknowledge that the
Midwest Regional Office validates the delivery of services each October. We believe however,
that the Inclusion Report and Monthly Service Attendance sheet are also necessary to provide the
Department with the assurance that the children with disabilities receive services throughout the
year.

We believe the proposed corrective actions will address the issue of documenting services
provided to children with disabilities.


                        OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Circle of Nations administered IDEA, Part B funds in
accordance with requirements, laws and regulations,2 and provided services to eligible children
in accordance with each student’s IEP.

To accomplish our objective, we—

       • 	 Reviewed the financial statement and compliance report for July 1, 2001, to June 30,
           2002;
       • 	 Reviewed Circle of Nations’s Special Education application and budget;
       • 	 Reviewed detailed expense reports and payroll information regarding IDEA, Part B
           expenditures. We compared the information to budget information and performed
           reasonableness tests on the information provided;

2
    Code of Federal Regulations 34 Part 300 to 399 revised as of July 1, 2002.
ED-OIG/A06-E0002 	                                                                     Page 6 of 7


   • 	 Reviewed the Student Roster – Final Certification Listing for Central Office for the 2001-
       2002 and 2002-2003 school years;
   • 	 Reviewed the Final Monitoring Report (April 2003);
   • 	 Reviewed the Special Education Review (December 2001);
   • 	 Reviewed the Annual Report Card for school years 2001-2002 and 2002-2003;
   • 	 Reviewed Circle of Nations’s Education – Organization Chart and Special Education
       Staff roster;
   • 	 Randomly selected 32 students for review, 15 of 138 students in school year 2001-2002
       and 17 of 145 students in school year 2002-2003. We reviewed the files for IEPs,
       progress reports, and a list of services to be provided. We then compared the list of
       services to supporting documentation (i.e., teacher attendance books, special education
       providers’ attendance books, and other relevant documentation); and,
   • 	 Interviewed various Circle of Nation employees and Department of the Interior/BIA
       officials in Albuquerque, New Mexico, and Minneapolis, Minnesota.

We relied upon the computerized student roster lists provided by Circle of Nations officials for
selecting our sample. We tested the student roster lists for accuracy and completeness by
comparing selected source records to the roster list. Based on this test, we concluded the student
roster list was sufficiently reliable to be used for the sample population.

We conducted our fieldwork at Circle of Nations in Wahpeton, North Dakota, from November
10 - 13, 2003. We discussed the results of our audit with Circle of Nations officials on
November 13, 2003. An exit conference was held with BIA officials on April 27, 2004.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of audit described above.


                    STATEMENT ON INTERNAL CONTROLS

As part of our review, we assessed Circle of Nation’s system of internal controls, policies, and
procedures applicable to providing special education services to children with disabilities.
Because of inherent limitations, a study and evaluation made for the limited purposes described
above would not necessarily disclose all material weaknesses in the internal controls. However,
our review identified that Circle of Nations needs to improve its internal controls related to
documenting special education and related services provided to children with disabilities in
accordance with each child’s IEP. Those weaknesses and their effects are discussed in the
AUDIT RESULTS section of this report.
ED-OIG/A06-E0002                                                                          Page 7 of 7



                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a
bearing on the resolution of this audit, you should send them directly to the following
Education Department officials, who will consider them before taking final
Departmental action on the audit:

                      Troy Justesen, Ed.D.
                      Acting Assistant Secretary
                      Office of Special Education and Rehabilitative Services
                      U.S. Department of Education
                      Federal Building No. 6, Room 3W315
                      400 Maryland Avenue, SW
                      Washington, DC 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits
by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 30 days would be greatly appreciated.

In accordance with Freedom of Information Act (5 U.S.C §552), reports issued by the Office of
Inspector General are available, if requested; to members of the press and general public to the
extent information contained therein is not subject to exemptions in the Act.

                                                     Sincerely,


                                                     Jon E. Kucholtz /s/ (for)
                                                     Sherri L. Demmel
                                                     Regional Inspector General
                                                       for Audit

Attachment
                         United States Department of the Interior
                                      BUREAU OF INDIAN AFFAIRS 

                                            Washington, D.C. 20240 

IN REPLY REFER TO:
                                            OCT 2 0 2004

  Sherri L. Demmel 

  Regional Inspector General for Audit 

  U.S. Department of Education 

  Office of Inspector General 

  1999 Bryan Street, Suite 2630 

  Dallas, Texas 75201-6817 


  Dear Ms. Demmel:

  This letter is written in response to the results of the Office of Inspector General audit of the
  Individuals with Disabilities Education Act (IDEA), Part B requirements at Circle of Nations
  School (Circle of Nations) for the period July 1,2001, through September 30,2003. As stated in
  your letter, the objective was to determine whether Circle of Nations administered IDEA, Part B
  funds in accordance with requirements, laws and regulations, and whether they provided services
  to eligible children in accordance with the student's Individualized Education Program (IEP).

  The audit report suggests that the school officials did not have procedures in place to
  demonstrate services were being provided to children with IEPs. However, according to OIEP's
  monitoring of Circle of Nation on March 17-18,2003, Circle of Nations had Special Education
  Policies and Procedures. This was used as a data source to complete their self-assessment dated
  February 2003.

  Generally, there is agreement with the proposed recommendations of your letter. Specifically,
  our response is outlined below:

        1. 	 Draft Audit Report Recommendation: Obtain assurance from Circle of Nations
              officials that the $1,554,466 oflDEA, Part B funds was used to deliver the educational
              assistance proposed in each of the IEPs for the 283 children with disabilities.

              Response: A written assurance from Circle of Nations will be obtained through the
              Grant Officer/Education Line Officer, indicating that IDEA funds were used to provide
              services to the 283 students with disabilities during SY 01-02 and SY 02-03 in
              accordance to each student's IEP. In addition, Circle of Nations submitted the IDEA
              (Part B) budget to the Midwest Region Office (MRO) as part of their annual
              Consolidated School Reform Plan Application amendment for SY 01-02 and SY 02-03.
              This budget provides information as to how expenditures were followed for that two-year
              period and is filed at the MRO and the Center for School Improvement. In addition, a
              detailed expenditure report for those two years is kept at the school's budget office.
                                                                                          Attachment



   2. 	 Draft Audit Report Recommendation: Instruct Circle of Nations to document all
        special education and related services provided to each current student with disabilities
        and develop a progress report to inform parents of their child's progress.

       Response: The MRO will continue to validate services through the Indian School
       Equalization Program (ISEP) count process conducted in October 2004 and each October
       thereafter. This is conducted using a checklist completed on 100% of the students in the
       school's special education program. (See Attachment A) The MRO conducts a Second
       Tier monitoring review that occurs between January-April of each year and involves a
       more extensive checklist of 67 items on 10% of student files. (See Attachment B) Each
       year a new group of student files are reviewed in order to gather more quantitative data.
       As part of the IEP, Circle of Nations uses Form 21D to document how the parents are
       informed of the progress of their children. (See Attachment C) The progress report is
       customarily sent to parents simultaneously when report cards are mailed out. (See
       Attachment D) Because of the distances covering the United States reaching 18 tribes, it
       is even more critical that Circle of Nations establish this effort to contact parents
       informing them of the progress their child is making toward the goals stated on the IEP.
       Form 27 of the IEP is a Contact Log which identifies any contact made with parents,
       including progress of the students. (See Attachment E) In addition, Circle of Nations
       now uses an Inclusion Report form for each student to document both the progress and
       hours of service time (See Attachment F). In addition, a Monthly Service Attendance
       sheet (See Attachment G) is also used by each special education teacher to document
       services. Circle of Nations has updated their special education policies and procedures
       which specifically states: The special educator assures that the monitoring is done and
       the updates regarding the child's progress are sent to parents at the same time the
       school's report cards are sent to parents. This document is on file at the MRO and the
       Center for School Improvement. The MRO staff will also conduct random audits on site
       throughout the year to check for these compliance issues.

   3. 	 Draft Audit Report Recommendation: Submit a corrective action plan, which includes
        strategies, benchmarks, proposed evidence of change, targets and timelines, to ensure the
        noncompliance identified in this audit is corrected.

       Response: See Attachment H.

Thank you for allowing this office the opportunity to respond to the audit. If you should have
questions, please contact Gloria Yepa at (505) 248-7541.

                               Sincerely,

                                   ~            ~                              

                                ~d M.D'
                               Edwar Panslan, lrector
                               Office of Indian Education Programs

Enclosures
                 !
                                 .... .... ....;-1 .... .... .... .... ....~ ....r"'   ;;   ';C   ~   ~   :tf   f'" !M   ~   ~
                                                                                                                                                                             I
                                                                                                                                                                             \
                             ~
                N.     N
            ~   !M .   r"'       ';C   ~           'it' !l­    f"­   !M                                                                                                          00
    t
                                                                                                                                                                                 " 


                                                                                                                                                                                 g
    ,

                                                                                                                                    t;f.l
                                                                                                                                                                                 -
    I

    :
                                                                                                                                    [
                                                                                                                                    fD
                                                                                                                                    :=
    ,                                                                                                                               ~
                                                                                                                                    ..,
    !                                                                                                                               !.
                                                                                                                                    fD
                                                                                                                                                                   ..


    4


                                                                                                                                                                                              c
                                                                                                                                                                                 f
                                                                                                                                                                                         -= 

                                                                                                                                                                                         00


                                                                                                                                                                                 i 5-,,=
                                                                                                                                                                                              ,..1
                                                                                                                                                                                      ool,'!rj~
                                                                                                                                                                                      ,,~~
;t:=.                                                                                                                            Disability Category.                                   00Q
                                                                                                                                                                                      Q"O ...

f~ 
                                                                                                                             Current Date on IEP.

                                                                                                                                 Hours of Service Stated on IEP and
                                                                                                                                                                                      _fD"""
                                                                                                                                                                                      --. _. 0­
                                                                                                                                                                                      l&!.-­
                                                                                                                                                                                      ..,~~
                                                                                                                                                                                         =z,.=
                                                                                                                                                                                         ~ ~

!
                                                                                                                                 Verified by Lesson Plan(s) and/or Special
                                                                                                                                 Education Attendance Roster.                            = Q.
                                                                                                                                                                                         g.r;
                                                                                                                                                                                         (i=

                                                                                                                                                                                         :=   ~



 ~
                                                                                                                                 Permission for Placement - Parental or
                                                                                                                                 Guardian Signatures.                                    s.8
                                                                                                                                                                                         .... IoC
                                                                                                                                                                                                  

                                                                                                                                                                                         ~a
                                                                                                                                                                                         ~tJQ
                                                                                                                                 Present Level of Education Performance,                 Q    ..,
                                                                                                                                 Annual Goals, BenchmarkerslObjectives                   :=   ~

                                                                                                                                 & Progress Reports.                                          i
                                                                                                                                                                                 .~
                                                                                                                                 Transition Planning 14 years +.
                                                                                                                                                                                 ~
        ,                                                                                                                        Verified Paraprofessional Consultation
                                                                                                                                 with Special Education Teachers for
                                                                                                                                 Students Participating in Inclusion.

        ~
                                                                                                                                 Appropriate Certification of Teachers and
                                                                                                                                 Assessment Team members.
        ',\ ,                                                                                                              Attachment
.•
 ,
           .,
 Agency                                              Monitor 	                                          Date Monitored
        -------------------
 School System 	                                                                       Teacher
                                                                                                                           ------
     Student
                           --~------------------------------
                                                                    DOB
                                                                                                  ------------------------
                                                                                                        Age     Grade
         ----------------------------
 Disability
          -----------------------------
 Student Status

     "KEY:               Y='Yes'                                                 N = No                  T == Transfer
                         NA = Not Applicable                 o = Old (Activity that happen 3 or more years in the past.)
     Directions: 	Select the acronym, defined above, that best describes each compliance concern. Explain
                 an "N" in the comment section by selecting the proposed responses or defining your own
                 using "Edit" or "Other'.

     1. GENERAL REQUtr:;:MENT
        a. Fite in secure location. (300.572)
     Comment


          b. Access log is included in file and corn:>leted correctly. (300.563)
     Comment



     2. Evaluation Procedures
         a. Prereferral interventions completed prior to referral to special education. Oate:
                (300.527(b)(4), (300.533   (a){1)(i~ and BIA Eligibility Document)
     Comment


         n. Referral form included in file. Date:                                (BIA Eligibility Document)
     Comment:


         c, 	 Information gathered regarding student participation and progress in the general education curriculum.
              (300.533(a)(1 )(ii})
     Comment


         d. Evaluation procedures related to the referra~ and prior inteN&ntions. (300.532 & 300.533-)
     Comment
                                                                        "
         e. Evidence of asking studenb age 14 years and older their needs, preferences and interests.
            (300.344 (b)(2) & 300.533 (a»
     Comment


         f. Consent fOT initial evaluation In writing and in the file. Date:                        :300.505 (a)(1 ) (i)
     Comment




                                                                            1

                                                                                                                Attachment
        "   ,
. 'Student                                         Teacher.                                         Date:
     g. Variety of evatuation tools and strategies used to gather relevant, functional & developmental information.
        (300.532 (b» 

  Comment 



     h. Tests are not biased in terms of race, gender, culture, or socioeconomic status. (300..532 (a)(1)@ 

  Comment 



      i. Evaluation conducted in native language or other mode of communication where appropriate. (300.S32)(a)(1)(Ii»

  Comment


     j. Stlident evaluated in all areas of suspected disability. (300.532)(g» 

  Commsnt 



     k. Current evalu~tion was conducted by a team of professionals, including parental input. (300.532 (b» 

  Comment: 



      t. Current evaluation is tess than three years old. DATE:                        (300.536)(b»
  Comment:


      m. Most recent 1hree-year eValuation/review was held within required timeUne. (300.S36)(b»
  Comment


    n. Consent for Reevaluation in file if team determines reevaluation is necessary, DATE: 

       or documentation of attempts to get & lack of parental response. 

       (300.S05(a)(i). 300.505 (c), 300.533 & (300.536» 

 Comment;

    o. Continued eligibility documented if team determines that a reevaluation is not required to document the
       students continued eHgihil1ty for special education services. (300.533 (d)
 Comment


 3. Eligibility
    a. Evaluation Report completed and in the file. ·DATE:                            (300.534 (a){2»
 Comment:


    b. Eligibility determination documented & in file. DATE:                            (300.534 (a)(2»
       (Evaluation Report and Eligibiflty determination may be the same document.)
 Comment


      c. Determination by multidisciplinary team. including parent. (300.534 (a)(1»
 Comment:


      d. All eligibility criteria documented. (300.534 (8)(2) & 300.535(a)(2»
 Comment


                                                                   2

                                                                                                                         Attachment
,
    Student                                           Teacher: 	                                            Date:
       e. Student exited when eligibility team determines that student is no longer eligible for services. (300.534) 

    Comment: 



       f. Section 504 is used as another service option for children with disabilities. (BIA Eligibility Document)
    Comment:


       g. Copy of report given to parent(s). (300.534 (a)(2»
    Comment



    4. INDIVIDUALIZED EDUCAnON PROGRAM (IEP)
       a. Current IEP in student's file. DATE:                                      (300.342 (a&b»
    Comment:


        b. InitiailEP development date within 30 days of eligibility determination. (300.343 (b)(2»
    Comment


       c. Current rEP is tess than one year (365 days) old. (300.343 (c)(1»
    Comment:


       d. JEP imptementation date is defined on the IEP. (300.347)(8)(6»
    Comment:



    5. Appropriate participants included on the IEP team:
        a. 	Parent(s) (300.344 (a)(1»
        b. 	School administrator who is qualified to provide or supervise the provision of specially designed instruction,
            who is knowfedgeabte about the general education curricufum, and who is knowledgeable about the
            availability of resources (can commit school funds). (300.344 (a)(4»
        c, 	Special education teacher. (300.344 (a)(3)
        d. General education teacher(s). (300.344 (a){2»
        e. 	 InclividmtJ who can interpret test results and instructional implications. (300.344 (a)(5»

        f. 	 Student (must be invited if 14 or order). (300.344 (a)(7), 300.344 (b) & 300.347 (b) (1 & 2»
        g. Representative of private school or a representative, if appropriate (300.349 (a)(2»
    Comment.




    6. lEP content;.
        &.              0'
             StatfHJlef}t  pr!!$.nt levehs of educational performance. iMluding how di$ability affed$ tnvolvement and
             progress in general education curriculum. (300.347 (a)(1»
    Comment:


                                                                       3

    ,	    ,                                                                                                               Attachment

"Student                                              Teacher: 	                                            Date:
    b. Measurable annuat goals. (300.347)(a)(2»
 Comment


    c. Goals are challenging. reflect high expectation and yet attainable. (300,347(a)(2»
 Comment:


   d, Two or more short-term obJectivesibenchmatks for each goal. (300.347)(a)(2» 

 Comment 




         e. A statement of how the child's parent(s) wilt be regularly informed on their child's progress toward the goals,
            and the extent to which that progress is sufficient to enable the child to achieve the goals by the end of the year.
            (300.347 (a)(7)
 Comment


    f. Consideration of extended school year services. (300.309)
 Comment:


         g. Consideration of assistive technology needs. (300.346 (a)(2)(v»
 Comment


    h. Consideration, if appropriate, of LEP needs, monitoring hearing aids, and/or use of Braille.
       (300.346 (a}(2)(~ & iii) & 300.303)
 Comment


         i. Consideration of behavior intervention needs. (300.346 (a)(2)(I)
 Comment:

     j. 	 If required, positive behavioral supports are appropriate to reduce suspension/expulsion.
          (300.346 (a)(2)(i)}
 Comment

         k. A statement of individual modifications in the administration, state, or school wide assessment. or why the
            assessment is not appropriate and how the student will be assessed. {300.347 (a)(5»
 Comment


     I. 	 An explanation of the extent, if any. to which the child Will not participate with non disabled peers in the general
              education classroom. general education curriculum, extracurricular, and/or other nonaCild8mic activities.
              (300.347 (a)(4»
 Comment


         m. A listing of each speds" education and related servic:8$ indicating amount of time. &tart date and duration.
            {300.347 (a)(3 & 6»
 .Comment:


                                                                      4

   . 	,                                                                                                                      Attachment

'·Student                                          Teacher: 	                                            Date"    .
     n. A listing Qf accommodations, mOdifications, and support in general and special education.
          (300.347 (8)(3) & 300.342)(b)(J)QO)
  Comment


     o. IEP focuses on improving academic skills and educational pertormance. (300.347)
  Comment


  7. Statement of transition service needs beginning at age 14:
      a. At age 14, a course ofstudy is defined. (300.347 (b)(1»
  Comment:


    b. At age 16, a statement of interagency responsibilities or any need linkages. (300.34TQ)"{2»)
 Comment


    c. RepresentatiVes frgm other agencies are invited and attend the transition meeting (age 16+).
       (300.345 (b)(3)(iii))
 Comment


     d. Not later than their 17th birthday, an eXplanation that rights will transfer to the student at age 1   e. (300.347 (c»
 Comment:


     e. Gladuation requirements. addressed. (300.122 (a)(3)(ii1) & 300.347 (b))
 Comment


     f. 	 Students age 14 and older are being prepared to successfully transitiol1 to work. independent living. or
          additional education services that facilitate successful transition from school      to work or from school to
          pcst-secondary ~n. {300.341 (b)(1 & 2»
 Comment:


 8. Documentation 	of alternative methods of gaining input from participants not in
    attendance, where appropriate:
     •. Parent(s). (300.345 (c»
 Comment


     b. Transition-age student. (300.344 (b)(2) & 300.345 (a)(2»
 Comment:


     c. Agency representative(s) responsible for providing preschool or secondary transition services.
        (300.132 & 300.344 .(b)(3»
 Comment:

     d. Private school representative(s). (300.349 (a)(2»
 Comment


                                                                   5

      .   ,                                                                                                                       Attachment
•   ~tuacnt
                                    .      "M _ _
                                                              Teacher:                                                Date'   .
      9. Placement and Services:
               a. Parental Consent for Placement included in file. DATE:                               00.505 (a)(1)(u)). 

      Comment: 



         b. All services defined on the IEP are provided and promote a high quality education. (300.350(a)(1» 

      Comment: 



     10. Invitation
         a. Parent informed of purpose, time location and attendees of formal meetings. (300.345 (b)(1» 

      ComO')ent 



              b. rnvifation incfudes information regarding the parents' rights to bring other peopre to the meeting.
               (300.344 (a)(6) & 300.345 (b)(1) (iO) 

     Comment 



        c. Invitation lTIeets secondary transition requirement. (300.345 (b)(2 & 3») 

     Comment: 



              d. Current Procedural Safeguards brochure proVided along with invitation to meeting. (300.504 (a)(2» 

     Comment: 



              e. Documentation of attempts to arrange a mutually agreed upon time and place for the meeting. (300.345 (d))


    ..Comment:


     11. WRITTEN NOTICE Provided:
              a. Forthe initial assessment. (300.503 (a» 

     Comment: 



              b. Prior to implementation of 1&. (300.503 (a» 

     Comment 



              c. Prior to a change in an IEP. (300.503 (a» 

     Comment 



              d. Prior to a Change in placement, whieh ineludes graduation. (300.503 (a» 

     Comment: 



              e. Following .ttte ,reevatuatio'rl-Cfewrmination ar:td continued eligibility for services. (300.503 (a» 

     Comment 



              f. All Written Notices address the seven required are• . (300.503, (b» 

     Comment 



                                                                              6

     STUDENT:                                                         DOB:                          DATE'
r        . . eSENT LEVELS OF EDUCATIONAL PERFORMANCE-                                        Describe in PLAIN TERMS: (a) What the student
            and CANNOT DO compared to the same grade peers, (b) how the child's disability affects involvement and progress in the general
r---­
         ..cation curriculum, (c) as appropriate, performance on any general school-wide assessment programs, and (d) parental concerns.




 Parents will be informed of progress:                   I                                    IMethod:       I
                                                             ANNUAL GOAL                                                              Goal
  Annual Goal#                          (Linked to PLEP,MEASURABLE & reasonably accomplished within 12 months. )                      Code




   EXTENDED SCHOOL YEAR                    o Yes    ONo      o Postponed until (Initial IEP only)      Complete ESY form to make determinatior .

                                SHORT TERM OBJECTIVES or BENCHMARKS (Minimum of 2)
                               (If STO's are used each objective must have a Behavior, Condition & Criteria.)

     /.
,.....


   Evaluation Procedures:                                                           Positions Responsible:



 ~-


   Evaluation Procedures:                                                           Positions Responsible:




~
   Evaluation Procedures:                                                           Positions Responsible:




EI
             "Jation Procedures:                                                    Positions Responsible:

         -
                                                                                                           Attachment


 IEP DATE:                                  EXCEPTIONAL EDUCATION 

                                              PROGRESS REPORT 

       !ctions: Update and provide to parents with report cards.
~I-UDENT:                                                    DOB:                                DATE'
  Goal Progress:
  1- This goal has been met.
  2= Progress has been made toward the goal. It.appears that the goal will be met by the annual review date.
  3= Progress has been made toward the goal but the goal may not be met by the time the annual review date.
  4= Progress is not sufficient to meet this goal by the annual review date. An IEP amendment is required.
  5= Your child did not work on this goal during this reporting period. (Provide an explanation to the parents.)

  Annual Goal #             Define goal in space provided.                                                            (;;oal GOCle
                                                                  .

  Report 1: Date:                         Goal Progress:     01 02 03 04 05
  Comment:

  Report 2: Date:                         Goal Progress:     01     02 03 04 05
  Comment:

  Report 3: Date:                         Goal Progress:     01 02 03 04 05
  Comment:

  Report 4: Date:                         Goal Progress:     01 02 03 04 05
       nment:
  -­
  Report 5: Date:                         Goal Progress:     01     02 03 04 05
  Comment:

  Report 6: Date:                         Goal Progress:     01     02 03 04 05
  Comment:


  Report 7: Date:                         Goal Progress:     01     02 03 04 05
  Comment:

                              At the end of the IEP goal period. answer the following questions.
  Progress: Is the child making progress expected by the IEP team?   Independence: Is the child more independent in goal area?
       o Goal met                                                          0 Greater independence
     0 Goal not met, but performance improved                              0 Unchanged independence
     0 No change or poorer performance                                      0 Less independence
     0   Insufficient  data for decision making                             0 Insufficient data for decision making
  Comparison to peers or standard: How does the child's performance  Goal  Status: Will work In the goal area be continued or
  compare with general education peers or standards?                 discontinued?
     0 Comparison to age or grade level peers or standards not Discontinue goal area:                       Continue goal area:
         appropriate                                                   o Success,nofurthereduca­         o     More advance work
     0 Less discrepancy from peers or standard                           tion needs in  goal  area             in goal area
     ':J Same discrepancy from peers or standard                       o Goal area is not a priority     o     Continue as written
     ­ 0   More discrepancy from peers or standard                         for the next year

'r     o   Insufficient data for decision making                       o   Limited progress, plateau
                                                                                                                        Attachment


                                               Exceptional Education
                                                   Contact Log
        Jent Name:
~arentiGuardian Name:
    /                  --------------­                                                        Daytime Phone:
  Date:                        Person Contacted:                                  Purpose of Contact:
           ~:-::----==-
  Meeting Notice:         0    Meeting Date    0    Meeting Time       0   Meeting Location   0   Person(s) Attending
  Comments:


  Date:               Person Contacted:                                           Purpose of Contact:
        ---=-~----::.
  Meeting Notice:         o
                      Meeting Date 0 Meeting Time                      0   Meeting Location 0 Person(s) Attending
  Comments:


  Date:                     Person Contacted:                                     Purpose of Contact:
        ----.,--
  Meeting Notice:
                  ........

                        0 Meeting Date 0 Meeting Time                  0   Meeting Location   0   Person(s) Attending
  Comments:


  Date:                              Person Contacted:                            Purpose of Contact:
  Meetin-g'":'N':""o"":':ti-ce-:-~D= Meeting Date 0 Meeting Time       0   Meeting Location 0 Person(s) Attending
  Comments:


         .I:                         Person Contacted:                            Purpose of Contact:
~i1eetin-g'":'N':""o"":':ti~ce-:-~D= Meeting Date 0 Meeting Time       0   Meeting Location 0 Person(s) Attending
    Comments:


  Date:              Person Contacted:                                            Purpose of Contact:
        -.,.-----.==
  Meeting Notice:  0 Meeting Date 0 Meeting Time                       0   Meeting Location 0 Person{s) Attending
  Comments:


  Date:                        Person Contacted:                                  Purpose of Contact:
           ---=-~--~=
  Meeting Notice:          0   Meeting Date     0   Meeting Time       0   Meeting Location   0   Person(s) Attending
  Comments:


   Date:                              Person Contacted:                           Purpose of Contact:
   Meetin-g'":'N':""o"":':ti~ce-:-~D= Meeting Date 0 Meeting Time      0   Meeting Location 0 Person(s) Attending
   Comments:


   Date:                                 Person Contacted:                        Purpose of Contact:
   Meetin-g'":'N':""o"":':tic~e-:---::O= Meeting Date 0 Meeting Time   0   Meeting Location 0 Person(s) Attending
        "menta:


                                                                 Form 27
                                                                                              Attachment



                          United States Department of the Interior
                                         BUREAU OF INDIAN AFFAIRS 

                                                 Midwest Regional Office 

                                          Bishop Henry Whipple Federal Building 

'" REPLY 1UIf'E/t TO:
                                              One Federal Drive. Room 550 

                                                 Ft. Snelling, MN 55 III 

 Office of Indian 

  Education Programs 

                                                        SEP 2 It zoo~
 Memorandum


To: 	                   Chief School Administrator. Flandreau Indian School 

                        School Administrators, Grant Schools 

                        Attention: Special Education Coordinators and Special Education Teachers 


From: 	                 Office of Indian Education Programs, Midwest Region

Re: 	                   Documentation of Direct Services for Students with Disabilities

Dr. Fern Diamond and Everett Bad Wound, Field Education Specialists reviewed methods and/or
procedures that are utilized to document the amount of service time a student with a disability
receives. The attached Inclusion Report, originally drafted by one of our schools, and a page
from a teacher attendance book, have been reviewed by the Center for School Improvement and
are highly recommended for use by all of our schools as a way to document direct services that
can be tied back to the students Individual Education Plan (rEP). The documentation should be
equal to those hours/minutes stated on the rEP.

The paraprofessionals can use the Inclusion Report to document service time. Related service
persoMel will also need to document service time clearly in their attendance books. It is very
important that all staff in a school be consistent in their documentation of service time. The
Inspector General's Office, Department of Education has found this to be a weakness in our
programs.

If you have any questions or need clarification you may contact Fern at 612-713-4400, ext. 1095
or Everett at ext. 1094.


Attachments                                                    erry 0 ra      (M;::
                                                              Education Line Officer




                                                                                                     •

                                                                                                           Attachment
                                        Inclusion Report
 Name_______________________ School __________________________
 Teacher                                     Paraprofessional-:---:''':-::-~--:"_~---
 This confidential report is to be completed by the paraprofessional/aide assigned to assist
 with inclusion and participation of the student in the regular education classroom and the
 school environment.
 Commegt Code: A.) On-task        B.) Generally Cooperative C.) Displayed etTort D.) Participllted
 E.) Completed Ulignment(.)       F.) Pleasant demeaaor G.) Worked independently ft.) Required
 several prompts L) No effort J.) Withdrawn/avoided peers 1(.) Letbargieltired L)
 DefillDtiargumentative M.) Obscene language/gestures N.) Physical auression 0.) Other
 NOTE: Please provide a brief narrative of your daily ob$enratioDS. Some examples of narrative
 descriptors: "On-task 20 out of 30 minutes"; " used pro.fani!y Ix"; "foUowed directions 3"' x prompted"

 Monday:                          IDate)                               Time Period:
 Subject          Standard!Bencbmark taugbt                  Comment Code        Teacber & Para Initials
 1)                                                                                                I
2)                                                                                                 I
3)                                                                                                 I
4)                                                                                                 I
5)                                                                                                 I
6)                                                                                                 I
7)                                                                                                 I
Narrative:
             -----------------------------------------------------
Tuesday:                         (Date)                               Time Period:
Subject          StandardlBeochmark taught                  Comment Code        Teacher & Para Initials
1)                                                                                             I
2)                                                                                             I
3)                                                                                             I
4)                                                                                             I
5)                                                                                             I
6)                                                                                             I
7)
Narrative:_________________________________________________________
                                                                                               I




Wednesday:                          JDate)                            Time Period:
Subject          StandardlBeocbmark tauEbt                  Comment Code        Teacher &: Para Initials
1)                                                                                         I
2)                                                                                         I
3)                                                                                         I
4)                                                                                         I
5)                                                                                         I
6)                                                                                         I
7)                                                                                         I
Narrative:_________________-----------------------------------------­
                                                                                                   Attachment


 Thursday:                         (Date)                           Time Period:
 Sub_iect        Standard/Benchmark taueht                  Comment Code      Teacher & Para Initials
 1)                                                                                      I
 2)                                                                                      I
 3)                                                                                      I
4)                                                                                       I
5)                                                                                       I
6)                                                                                       I
7)                                                                                       I
Nananve:.__________________________                     ~   __----__________________

                           ,
Friday:                        (Date)                               Time Period:
Subiect          StandardiBencbmark taopt                 Comment Code        Teacher & Para Initials
1)                                                                                       I
2)                                                                                       I
3)                                                                                       I
4)                                                                                       I
5)                                                                                       I
6)                                                                                       I
7)                                                                                       I




Comment Code: A.) On-task   B.) Generally Cooperative C.) Displayed efYort D.) Participated
E.) Completed assignment(s) F.) Pleasant demeaaor G.) Worked iadependently 8.) Required
several prompts L) No efYort J.) Withdrawalavoided peen 1(.) Lethargic/tired L)
Defiant/argumentative M.) Obscene language/gestures N.) Pbysical aggression 0.) Other

This InclusWn Report wlU be m4intained with the sch()Ol/or fl minimum o/three yefll's.
                                                                                                                 Attachment



                                                                       Spcc.r.-l..        2cl~t' oN'ooo.   -rc~
                       Sample of an attendance sheet from teacher attendance book.
 SettinglEnvironment: Math, Reading, ResoW'Ce Room, etc.                          ".               -,.
 Teacher Name: -< Should be on the cover ofthe Attendance Book)
  Subject:



  Time:
                        ...c::
                         II)
                         e
                         a,
                        'r;;
                         en
 Section:               <
 Month:                                    ll)l Week                        2114 Week                           3AJ Week
 Date:
                                 M    T    W T         F          M T        W        T     F      M       T    W      T    F
 Students
 1. Peter Pan                    30   30    30   A     30         30   30    30   30       30       30     30    30    30   30


 2. Mickey Mouse                 p    p     p    p     P          T     P    P        P     P       A      P     P     P    P


 3.

 4.

 S.
6.

7.

8.

9.

 10.


Need: 	Legend to identify absences, tardy, etc.
       A-Absent T=Tardy            E-Euused                 P (or ...J ) =1 Present

Peter is 08 an IEP tbat reftects 150 minutes or service per week.
Mickey is not on an IEP.




                                                                                                                      •

                                                        ATTACHMENT H 

                      CIRCLE OF NATIONS CORRECTIVE ACTION PLAN FOR 2004-2005 


Objective                          Strategies                                Benchmarks/                          Timeline
                                                                             Evidence ofChange
School will have progress          (1) Special education teachers will use
                                                                         (1) ISEP validation of all special       (1)ISEP by October 22,
reports in 100% of student files   required forms to document progress   education files; (2) Second Tier         2004; (2)Second Tier
with evidence to show that         of students with disabilities; (2)    monitoring done between Jan. and         results due by April 2005;
parents have received them as      Special education teachers will use   April of each year; on-site visits       (3)parent surveys by July
evidenced through scheduled        required forms to document contact    from the MRO to verify that              2005; (3) quarterly
and random visits from the         made with parents to inform them of   progress notes were sent to parents
MRO.                               their child's progress.               of all children with disabilities. (3)
                                   (See Attachments D, E, F ,G)          Parent survey results; School
                                                                         special education coordinator will
                                                                         collect and verify the
                                                                         documentation.
School will provide              (1) Special education teachers will use (1) ISEP validation of all special       (1)ISEP by October 22,
documentation in 100% of         required forms to document progress education student files; (2) Second          2004; (2)Second Tier
their student files showing      of students with disabilities therefore Tier monitoring done yearly; on-         results due by April 2005;
services have been provided to indicating service was provided; (2)      site visits from the MRO to verify       (3)parent surveys by June
students with disabilities as    Special  education teachers  will       services for all children with           2005; (3) quarterly
verified through scheduled and   maintain   attendance records           disabilities. (3) Parent survey
random visits from the MRO.      documenting frequency and duration results; School special education
                                 of services provided to students with   coordinator will collect and verify
                                 disabilities.                           the documentation.
                                 (See Attachments D, E, F ,G)
School will update their Special (1) Circle of Nations special           The updated policies and                 November 30, 2004
Education Policies &             education staffwill meet to update      procedures manual will be
Procedures Manual to include     their policies and procedures manual available on-site at the school, and
a statement of how and when      for submission to the MRO for           kept on file at the MRO and the
parents are notified of their    review and revision, if necessary. (2)  Center for School Improvement.
child's progress.                The P&P will be presented to school                                              May 2005
                                 board for approval and signature.




                                           Page 1                                10/20/2004
